                    STATE OF WISCONSIN
         DEPARTMENT OF WORKFORCE DEVELOPMENT
                201 E. WASHINGTON AVENUE
                MADISON, WISCONSIN 53707




                 AUDIT OF INDIRECT COSTS CHARGED TO

            DEPARTMENT OF LABOR GRANTS AWARDED TO THE

            DEPARTMENT OF WORKFORCE DEVELOPMENT FOR

         STATE FISCAL YEARS ENDING JUNE 30, 1998, 1999, AND 2000




                                         Report No:     03-03-001-03-315

                                         Date Issued: October 17, 2002




                 TICHENOR & ASSOCIATES, LLP
CERTIFIED PUBLIC ACCOUNTANTS AND MANAGEMENT CONSULTANTS
                STATE OF WISCONSIN
     DEPARTMENT OF WORKFORCE DEVELOPMENT
            201 E. WASHINGTON AVENUE
            MADISON, WISCONSIN 53707




              AUDIT OF INDIRECT COSTS CHARGED TO

         DEPARTMENT OF LABOR GRANTS AWARDED TO THE

         DEPARTMENT OF WORKFORCE DEVELOPMENT FOR

     STATE FISCAL YEARS ENDING JUNE 30, 1998, 1999, AND 2000




This audit report was prepared by Tichenor & Associates, LLP,
under contract to the U.S. Department of Labor, Office of
Inspector General, and, by acceptance, it becomes a report of the
Office of Inspector General.


                     _____________________________________
                     Deputy Inspector General For Audit
                     U.S. Department of Labor




                                      Report No:     03-03-001-03-315

                                      Date Issued: October 17, 2002
                                              TABLE OF CONTENTS



ACRONYMS .......................................................................................................................... i

GLOSSARY............................................................................................................................. ii

EXECUTIVE SUMMARY...................................................................................................... 1

INTRODUCTION ................................................................................................................... 4

      Background......................................................................................................................... 4
      Objective, Scope and Methodology..................................................................................... 6

FINDINGS

1.    General Administration Pool Costs Charged to
      DOL Grants Were Overstated..............................................................................................8

2.    DUI Did Not Allocate Its Share of the DWD ASD-Finance Indirect Cost Pool
      to “All” DUI Cost Objectives on the Basis of “Relative Benefits Received”..........................19

3.    DUI and DWE Did Not Allocate Their Share of the
      DWD Application/Database Servers Indirect Cost Pool
      to “All” DUI and DWE Cost Objectives
      on the Basis of “Relative Benefits Received”........................................................................21

4.    DWD Used Manual Vouchers to Improperly Shift Costs
      from a Non-DOL Program to DOL Grants .........................................................................25

CONCLUSIONS AND RECOMMENDATIONS ...............................................................28

INDEPENDENT ACCOUNTANT’S REPORT ON AUDIT...............................................30

APPENDIX 1: FEDERAL COST REIMBURSEMENT PRINCIPLES............................33

APPENDIX 2: AUDITEE’S RESPONSE ..........................................................................38




OIG Report 03-03-001-03-315
                                     ACRONYMS

AFDC        Aid to Families with Dependent Children

ASD         Administrative Service Division

CC          Child Care

CFR         Code of Federal Regulations

DWD         Wisconsin Department of Workforce Development

DOL         U.S. Department of Labor

DUI         Division of Unemployment Insurance

DWE         Division of Workforce Excellence

FS          Food Stamps

FTE         Full-time Equivalent

HHS         U.S. Department of Health and Human Services

MA          Medical Assistance

NPS              Non-Personnel Services

OCD         U.S. Department of Labor, Office of Cost Determination

OIG         U.S. Department of Labor, Office of Inspector General

OMB         U.S. Office of Management and Budget

PR-S        Program Revenue Service

SFY              State Fiscal Year

SWCAP       Statewide Cost Allocation Plan

TANF        Temporary Assistance to Needy Families

UI          Unemployment Insurance

OIG Report 03-03-001-03-315                                          i
                                          GLOSSARY



Direct Cost:       A cost that can be identified specifically with a particular cost objective, e.g.,
                   the DOL Unemployment Insurance Program.

Indirect Cost:     A cost which cannot be identified with a single, final cost objective, but is
                   identified with two or more final cost objectives, one or more of which benefits
                   Federal programs. Such costs are combined into groupings or pools for
                   distribution to benefiting final cost objectives. Indirect cost pools should be
                   distributed to benefited cost objectives on bases that will produce an equitable
                   result in consideration of relative benefits derived.

Questioned Cost: A cost that is questioned because of:

                   (a) an alleged violation of a provision of a law, regulation, contract, grant,
                   cooperative agreement, or other agreement or document governing the
                   expenditure of funds; or

                   (b) at the time of the audit, such cost is not supported by adequate
                   documentation; or

                   (c) the expenditure of funds for the intended purpose is unnecessary or
                   unreasonable.

Allowable Cost:    To be allowable under Federal awards, costs must meet the following general
                   criteria: (1) be reasonable and necessary for proper and efficient performance
                   and administration of Federal awards; (2) be allocable to Federal awards in
                   accordance with OMB Circular A-87; (3) be consistent with policies,
                   regulations, and procedures that apply uniformly to both Federal awards and
                   other activities of the governmental unit; (4) be accorded consistent treatment
                   (e.g., a cost may not be assigned to a Federal award as a direct cost if any
                   other cost incurred for the same purpose in like circumstances has been
                   allocated to the Federal award as an indirect cost); (5) except as otherwise
                   provided for in OMB Circular A-87, be determined in accordance with
                   generally accepted accounting principles; (6) be the net of all applicable credits;
                   and finally (7) be adequately documented.

Allocable Cost:    A cost is allocable to a particular cost objective if the goods or services
                   involved are chargeable or assignable to such cost objective in accordance with
                   “relative benefits received.”



OIG Report 03-03-001-03-315                                                                             ii
                                 EXECUTIVE SUMMARY



Tichenor & Associates, LLP, Certified Public Accountants and Management Consultants, under
contract to the U.S. Department of Labor (DOL), Office of Inspector General (OIG), audited the
indirect costs charged by the State of Wisconsin’s Department of Workforce Development (DWD)
to DOL grants administered by the Division of Unemployment Insurance (DUI) and Division of
Workforce Excellence (DWE).

Our audit objective was to conduct an audit of the direct and indirect costs charged to the UI grant
award to DWD for the period July 1, 1999, through June 30, 2000 (SFY 2000), to determine
whether such costs were reasonable, allocable, and otherwise allowable under the Federal cost
principles set forth in OMB Circular A-87, Cost Principles for State, Local and Indian Tribal
Governments, and the implementing guidelines set forth in ASMB C-10, Cost Principles and
Procedures for Establishing Cost Allocation Plans and Indirect Cost Rates for Agreements
with the Federal Government. Based on the results of our audit efforts of SFY 2000, the scope
of the audit was expanded to include SFYs 1998 and 1999 and to cover other DOL grants
administered by DWD.

Audit Results

Our audit found that DWD needs to adhere to OMB Circular A-87, Cost Principles for State,
Local and Indian Tribal Governments, which requires that indirect costs be given “consistent
treatment” and be allocated to cost objectives on the basis of “relative benefits received.” Our
audit disclosed that for the SFYs ended June 30, 1998, 1999, and 2000, DWD charged $75.3
million to DOL grants administered by DUI and DWE instead of the actual allowable indirect costs
properly allocable to DOL grants within DUI and DWE of $71.5 million. We are questioning a
total of $3,819,850 in indirect costs as follows.

                                                    (Dollars in Thousands)

                  Description                         1998         1999         2000        Total
Indirect Costs Charged to DOL Grants
Administered by DUI and DWE                          $25,714      $24,059      $25,542      $75,315
Allowable Indirect Costs on DOL grants
within DUI and DWE                                     24,305       23,235      23,956       71,496
Indirect Costs Overcharged on DOL Grants             $ 1,409      $    824     $ 1,586      $ 3,819




OIG Report 03-03-001-03-315                                                                         1
Based on our audit, we questioned a total of $3,819,850 in indirect costs charged by DWD to
DOL grants administered by DUI and DWE during the 3-year period ended June 30, 2000,
primarily because:

1.   DWD’s General Administration pool costs improperly included $459,460 of Office of Legal
     Counsel costs that were allocated to DOL grants on a basis other than “relative benefits
     received;” and General Administration pool costs charged to DOL grants, on the basis that
     budget estimates were not periodically adjusted to and exceeded DWD’s actual costs by
     $2,147,099.

2.   DUI did not allocate its share of the DWD Administrative Service Division (ASD)-Finance
     indirect cost pool to all DUI cost objectives on the basis of “relative benefits received;”
     instead, 100 percent of these indirect costs were charged to a single DOL grant award
     resulting in $120,985 of questioned costs.

3.   DUI and DWE did not allocate their share of the DWD Application/Database Servers indirect
     cost pool to all DUI and DWE cost objectives on the basis of “relative benefits received;”
     instead, they charged 100 percent of these indirect costs to a single DOL grant award within
     each of their respective divisions resulting in $933,306 of questioned costs.

4.   Manual vouchers totaling $159,000 were improperly shifted from a non-DOL program to
     DOL grants because the State project had reached its budget.

Similar improper allocated charges of indirect costs to DOL grants may have occurred in SFYs
2001 and 2002, since the conditions discussed above have not changed since the completion of our
fieldwork in December 2001.

Auditee’s Response

In its written response dated June 25, 2002, DWD disagreed with virtually all our findings and
recommendations. We have incorporated DWD’s detailed comments at the end of each finding, as
appropriate. In addition, a copy of DWD’s written response is included in its entirety as an
appendix to this report.

Auditor’s Conclusion

DWD’s written response did not provide any new or compelling evidence that would warrant any
change in the findings, conclusions, and recommendations presented in our report. In summary, all
recommendations are considered unresolved and will be addressed in the DOL’s formal resolution
process.




OIG Report 03-03-001-03-315                                                                         2
Recommendations

We recommend that the cognizant DOL grant officer(s) direct DWD to refund the $3,819,850
million in indirect costs that it overcharged to DOL grants in SFYs 1998, 1999, and 2000, and to
adjust its billings to DOL for SFYs 2001 and 2002 to preclude further overcharging of indirect
costs attributable to the findings in this report.

Further, we recommend that the Assistant Secretary for Employment and Training direct DWD to
develop written internal control policies and procedures to ensure that its methodology for charging
indirect costs to DOL grants fully complies with the reasonableness, allocability, and allowability
criteria mandated by OMB Circular A-87.




OIG Report 03-03-001-03-315                                                                        3
                                     INTRODUCTION


BACKGROUND

The State of Wisconsin’s Department of Workforce Development (DWD) is a State agency
charged with building and strengthening Wisconsin’s workforce in the twenty-first century and
beyond. The Department’s primary responsibilities include providing job services, training, and
employment assistance to people looking for work. At the same time, it works with employers to
find the necessary workers to fill job openings.

DWD consisted of seven divisions and three organizations. For the State fiscal years (SFYs) ended
June 30, 1998, 1999, and 2000, DWD reported expenditures of more than $.9, $1.3, and $1.9
billion, respectively, and employed more than 2,300 people. The Division of Unemployment
Insurance (DUI) and Division of Workforce Excellence (DWE) administer nearly 97 percent of the
U.S. Department of Labor (DOL) funds. DUI had expenditures of $57.8, $60.8, and $66.0 million
and employed more than 600 employees for SFYs June 30, 1998, 1999, and 2000, respectively.
DWE had expenditures of $71.9, $65.5, and $68.0 million and employed more than 400
employees for SFYs June 30, 1998, 1999, and 2000, respectively. A brief discussion of the two
divisions covered in our audit follows:

Division of Unemployment Insurance

This division is responsible for:

C    providing temporary economic assistance to Wisconsin’s unemployed workers;
C    collecting Unemployment Insurance (UI) taxes from employers in compliance with State and
     Federal UI laws;
C    estimating the accuracy of UI benefit payments, revenue operations, denied claims, and
     identifies individuals using the Telephone Initial Claims system;
C    collecting overpayments of UI, Aid to Families with Dependent Children (AFDC), Temporary
     Assistance to Needy Families (TANF), Medical Assistance (MA), Food Stamps (FS), and
     Child Care (CC);
C    conducting hearings when workers or employers disagree with DUI decisions regarding UI
     benefits or UI taxes; and
C    helping local agencies minimize fraud for AFDC, TANF, MA, FS, and CC.




OIG Report 03-03-001-03-315                                                                       4
Division of Workforce Excellence

This division is responsible for implementing the Partnership for Full Employment program. This
program was developed for the delivery of three tiers of services: self-service, “lite” service, and
case-managed service for both job seekers and employers. The key element of the program is the
delivery of these multiple program services through integrated “one-stop” Job Centers.

                                           ********

DWD annually prepares and submits to the DOL’s Office of Cost Determination (OCD) an indirect
cost rate and program revenue service (PR-S) rate proposals for the various DOL grants. The
indirect cost rate is used to recover the costs associated with the Wisconsin Statewide Cost
Allocation Plan (SWCAP) from all projects within DWD. The PR-S rates are used to recover the
costs of the Administrative Service Division (ASD) and are based on budget estimates. ASD
provides accounting, budgetary, electrical, facilities, information systems, mail processing, payroll,
personnel, printing, purchasing, and training services for the other divisions within DWD. ASD
costs are accumulated in individual cost pools and each cost pool has its own PR-S rate. The
following are the ASD cost pools for SFYs 1998, 1999, and 2000:


    C   Analyst/Programmer                       C   Mainframe Printing
    C   Application/Database Servers             C   Network Support Fixed
    C   DWD-ASD Finance                          C   Network Support FTE (full time equivalents)
    C   Electrician                              C   Network Support Time
    C   Facilities                               C   Special Initiatives
    C   General Administration                   C   Wisconsin Conservation Corps Payroll
    C   Mail Service                             C   Y2K Client Server Test Environment
    C   Mainframe Activities                     C   Non-fee NPS (non-personnel services)



In preparing its proposal for the indirect cost rate, DWD receives from the Wisconsin Department
of Administration an estimate of DWD’s share of the SWCAP costs. DWD’s share of the
estimated SWCAP cost is then divided by the total estimated DWD direct labor cost allocation
base to determine the proposed indirect cost rate submitted to DOL/OCD for review and approval.
 The DOL’s OCD-approved rate is then applied to the actual labor cost of each project within
DWD. This indirect cost rate was used to recover approximately $500,000 of SWCAP costs; we
did not audit these costs because the amounts allocable to DOL grants were not material in relation
to other costs.




OIG Report 03-03-001-03-315                                                                            5
OBJECTIVE, SCOPE AND METHODOLOGY

Our audit objective was to conduct an audit of the direct and indirect costs charged to the UI grant
award to DWD for the period July 1, 1999, through June 30, 2000 (SFY 2000), to determine
whether such costs were reasonable, allocable, and otherwise allowable under the Federal cost
principles set forth in OMB Circular A-87, Cost Principles for State, Local and Indian Tribal
Governments, and the implementing guidelines set forth in ASMB C-10, Cost Principles and
Procedures for Establishing Cost Allocation Plans and Indirect Cost Rates for Agreements
with the Federal Government. Based on the results of our audit efforts of SFY 2000, the scope
of the audit was expanded to include SFYs 1998 and 1999 and to cover other DOL grants
administered by DWD.

Our phase one risk assessment of costs charged to the UI Program for SFY 2000 indicated that 97
percent of the costs charged to DOL grants were used for grants administered by DUI and DWE.
We also determined that most of DWD’s indirect costs involved the PR-S rates used to allocate the
ASD costs to the other divisions within DWD. Our phase one risk assessment of the direct and
indirect costs charged to DOL grants within DUI and DWE did not indicate any significant
problems with the allowability of the costs. However, it did indicate problems with the methodology
used to allocate ASD costs to the DOL grants. Accordingly, we focused our audit on the DUI and
DWE grants and the indirect costs allocated to them using the PR-S rates. In addition, we
expanded our audit to include SFYs 1998 and 1999 for the issues noted during our audit of the
SFY 2000 costs.

The primary objective of phase two of our audit was to examine the DWD processes for claiming
and recovering indirect costs to determine the allowability and allocability of:
(1) the costs of services provided by the DWD administrative support groups for the benefit of
federally funded programs; (2) the expenses included in each center; (3) the methods used to
allocate these indirect costs to the operating units; and (4) to develop and report our findings.

The extent of our work on internal controls and compliance was limited to that necessary to fully
develop the specific problems/findings disclosed by our audit in accordance with Government
Auditing Standards.

Under Federal cost reimbursement principles, only actual incurred costs are allowable; budget
estimates are not allowable. However, when actual costs are not readily available, the Federal cost
principles permit the use of budget estimates for billing purposes on the condition that the claimed
costs are periodically adjusted to actual allowable costs. For example, the indirect cost rate and
PR-S rates proposal submitted by DWD to DOL’s OCD were based on budget estimates that
provide a basis for negotiating “fixed” indirect cost rates and PR-S rates for billing purposes, and
were purportedly adjusted to actual costs through the use of the “cash balance” of the cost pools
from the preceding year. Further, the negotiated indirect cost rate agreements state that DWD’s



OIG Report 03-03-001-03-315                                                                         6
recovery of indirect costs using these “fixed” indirect costs are subject to audit. See Appendix 1
for a detailed discussion of Federal cost principles.

This engagement was performed in accordance with the Government Auditing Standards issued
by the Comptroller General of the United States. Our engagement did not include expressing a
written opinion on the reasonableness and allowability of DWD’s total claimed costs, the adequacy
of its overall system of internal controls, or its overall compliance with laws and regulations
applicable to Federal grants.

Our audit fieldwork was performed at DWD offices in Madison, Wisconsin, during the period
August 27, 2001, through December 19, 2001. An exit conference was held on December 19,
2001, with officials from the Secretary’s Office of DWD and various other DWD officials.




OIG Report 03-03-001-03-315                                                                          7
                                          FINDINGS



FINDING 1. General Administration Pool Costs Charged to DOL Grants Were
           Overstated


Our audit of the General Administration pool costs charged to DOL grants administered by DUI
and DWE disclosed overcharges totaling $2,606,559 for SFYs 1998, 1999, and 2000. The
General Administration cost pool includes the costs of various ASD support functions that are
allocated to all divisions within DWD each month, using an approved PR-S rate, based on each
division’s actual FTEs for the month. Specifically, we found that:

A. The General Administrative cost pool improperly included the costs of DWD’s Office of Legal
   Counsel that were allocated to DOL grants administered by DUI and DWE on the basis of
   FTEs rather than “relative benefits received” as required by OMB Circular A-87. Our
   discussions with Office of Legal Counsel staff indicated that only about 5 percent of their time
   directly benefited DUI and DWE programs (including the DOL grants they administer), whereas
   about 45 percent of the costs of the Office of Legal Counsel costs was allocated to DUI and
   DWE. In turn, $459,460 of these costs (38 percent of total Office of Legal Counsel costs) was
   improperly allocated to the DOL grants administered by DUI and DWE.

B. DWD did not periodically adjust the General Administration pool costs charged to DOL grants
   (using PR-S rates based on budget estimates) once its actual costs became known, as required
   by Federal cost principles mandated by OMB Circular A-87. Our comparison of the total
   General Administration pool costs charged to the DOL grants (using PR-S rates that were
   based on budget estimates), with the actual incurred General Administration pool costs properly
   allocable to the DOL grants, disclosed that the DOL grants had been overcharged another
   $2,147,099 (after deducting the $459,460 in overcharges of Office of Legal Counsel costs
   noted above).

The following table summarizes by year: (1) the total actual incurred costs included in the General
Administration cost pool; (2) the total actual costs incurred by the Office of Legal Counsel that
should not have been included in the General Administration cost pool; (3) the total allowable
incurred costs included in the General Administration cost pool; (4) General Administration pool
costs allocated to DOL grants within DUI and DWE: (5) the amount of allowable General
Administration pool costs allocable to DOL grants administered by DUI and DWE; and (6) the
amount of General Administration pool costs overcharged to DOL grants administered by DUI and
DWE during SFYs 1998, 1999, and 2000.


OIG Report 03-03-001-03-315                                                                       8
                       GENERAL ADMINISTRATION COST POOL
                                                                        (dollars in thousands)

                  Description                         1998         1999          2000            Total

Total General Administration Cost Pool
 (Actual Incurred Costs)                               $6,669       $6,311        $6,593         $19,573

Less: Actual Office of Legal Counsel Costs                347          365           497           1,209

Total Allowable General Administration Cost
 Pool (Actual Incurred Costs)                          $6,322       $5,946        $6,096         $18,364

Total General Administration Pool Costs
Allocated to DOL Grants within DUI & DWE
(PR-S Rate times Actual FTEs)                          $3,188       $3,087        $3,260          $9,535

Total Allowable General Administration Cost
 Pool Allocable to DOL Grants within
 DUI & DWE (Actual Incurred Costs)                      2,354        2,240         2,334           6,928

Total General Administration Pool Costs
 Overcharged to DOL Grants
 Administered by DUI & DWE                             $ 834        $ 847         $ 926           $2,607

A. Office of Legal Counsel Costs Charged to DOL Grants

Our audit disclosed that $459,460 in Office of Legal Counsel costs were improperly allocated to
DOL grants administered by DUI and DWE during SFYs 1998, 1999, and 2000, on a basis other
than “relative benefits received” in violation of Federal cost principles mandated by OMB Circular
A-87. During the 3-year period covered by our audit, we found that about $1.2 million in costs
incurred by the Office of Legal Counsel, Office of the Secretary of DWD, were improperly included
in the General Administration cost pool and allocated to all DWD operating divisions based on
FTEs. DUI and DWE account for about 45 percent of total DWD FTEs. About 38 percent of the
$1.2 million in legal costs (or $459,460) were allocated to DOL grants administered by DUI and
DWE.

OMB Circular A-87 requires that indirect costs be allocated to cost objectives on the basis of
“relative benefits received.” To help grantees comply with this requirement, the implementation
guide for OMB Circular A-87 recommends specific bases for charging various types of
administrative and support services costs to Federal grants. The implementation guide specifically
recommends that legal services be charged/allocated to cost objectives on the basis of “direct
hours,” (i.e., treated as a direct cost rather than being included in an indirect cost pool).




OIG Report 03-03-001-03-315                                                                              9
Based on our discussions with the employees of the Office of Legal Counsel, we learned that they
performed very little legal work for DUI and DWE. Using data obtained in these interviews, we
calculated that the employees of the Office of Legal Counsel only spend about 5 percent of their
time on issues directly related to DUI and DWE programs.

We believe that the amount of legal work that the Office of Legal Counsel staff performs for DUI
and DWE clearly demonstrates that FTEs are not an acceptable basis for allocating the Office of
Legal Counsel costs to DOL grants on the basis of “relative benefits received,” as required by
OMB Circular A-87.

We also learned from our discussions with Office of Legal Counsel officials that their primary
responsibilities involved consulting with specific divisions on personnel or labor issues and assisting
the State Department of Justice with gathering information related to personnel or labor issues that
are going to court where it relates to a specific employee within a specific division.

In addition, we learned that DUI has its own staff of attorneys who “direct charge” their time to the
grants on which they work. OMB Circular No. A-87, Attachment A, paragraph C.1.f. specifically
states that costs must “Be accorded consistent treatment. A cost may not be assigned to a Federal
award as a direct cost if any cost incurred for the same purpose in like circumstances has been
allocated to the Federal award as an indirect cost.” Similarly, Attachment E, paragraph A.1. states,
in part, that “A cost may not be allocated to a Federal award as an indirect cost if any other cost
incurred for the same purpose, in like circumstances, has been assigned to a Federal award as a
direct cost.” [Emphasis added.]

Finally, assuming that the information obtained from Office of Legal Counsel staff was correct,
about 5 percent of the Office of Legal Counsel costs could have been charged to DUI and DWE
programs as direct costs had the staff maintained personnel activity reports or equivalent
documentation that met the detailed documentation standards set forth in OMB Circular A-87,
Attachment B, paragraph 11.h., subsection (5), which must be met in order to support claimed
salaries and wages (and all directly associated non-personnel costs). However, because this was
not done, the costs of any legal services they may have rendered to DUI and DWE are also
unallowable as direct costs.

Accordingly, we are questioning all of the $459,460 in Office of Legal Counsel costs charged as
indirect costs to DOL grants during SFYs 1998, 1999, and 2000.

Auditee’s Response

In its written response to our draft report, DWD stated that it did not agree with this finding, and
that its methodology for allocating the costs associated with the Office of Legal Counsel allocates
costs on the basis of “relative benefits received” and provides for consistent treatment of like costs.
 Among other things, DWD said that the auditors’ conclusion that the employees of the Office of


OIG Report 03-03-001-03-315                                                                           10
Legal Counsel only spend about 5 percent of their time on matters directly related to DUI and
DWE programs appeared to be based on discussions the auditors had with Office of Legal Counsel
legal staff. According to the head of the Office Legal Counsel, “this finding flatly contradicts my
recollection of my discussion with the contract auditor hired by DOL, in which I stated that the cost
allocation estimate was a very fair approximation of the amount of legal work performed by OLC
for DWE and DUI during this period.”

DWD further stated that the head of the Office of Legal Counsel “verified his impression of the
amount of work done for DUI and DWE by reviewing the OLC work logs for 1998-2000 that
contained over 400 entries. Discarding duplicate entries and minor items, he identified 127 cases,
mostly labor representation matters, in which a significant amount of legal work was done on behalf
of a DWD program. Of these, 65 involved services for DWE or DUI. While work logs do not
reflect all of the legal office staff effort, the data indicates that the overall effort was probably much
closer to the 38% actually charged than to the 5% that is quoted in the audit report.”

DWD also took exception to our quotes from OMB Circular A-87, Attachment A, paragraph
C.1.f, and Attachment E, paragraph A.1 regarding the requirement for consistent treatment of direct
and indirect costs of a like nature on the grounds that the legal work performed by the DUI staff
attorneys “do not serve the same purpose as the DWD Legal Counsel attorneys.” DWD
contended that the UI attorneys deal with UI program matters, while the Office of Legal Counsel
attorneys work in other legal areas.

Finally, DWD took exception to our recommendation that legal services should be charged to cost
objectives on the basis of “direct hours” pursuant to the OMB Circular A-87 implementation guide
(ASMB C-10). DWD points out that this was only a recommendation and the implementation
guide also states that “any method of distribution can be used which will produce an equitable
distribution of costs. In selecting one method over another, consideration should be given to the
additional effort required to achieve a greater degree of accuracy.”

Auditor’s Conclusion

DWD’s written response did not provide any new or compelling evidence that would warrant any
change in this finding, nor the related conclusions and recommendations.

First, although DWD is correct in its statement that our conclusion appeared to be based on
discussions we had with Office of Legal Counsel legal staff, we had no choice but to interview each
individual staff attorney about how much time he/she spent on DWD’s various cost objectives
because there was no acceptable documentary evidence showing how their time was actually spent.
 For example, the Office of Legal Counsel attorneys generally worked on multiple activities or cost
objectives (both direct and indirect); however, they failed to maintain personnel activity reports or
other acceptable supporting documentation required by OMB Circular A-87. Attachment B,
paragraph 11.h., of the Circular expressly states that where employees work on multiple activities or


OIG Report 03-03-001-03-315                                                                             11
cost objectives, “a distribution of their salaries or wages will be supported by personnel activity
reports or equivalent documentation . . .” and that the “Personnel activity reports or equivalent
documentation must meet . . .” a number of mandatory criteria which are cited elsewhere in this
report. [Emphasis added.]

Second, we do not agree with the statement made by the head of the Office of Legal Counsel that
the 38 percent “cost allocation estimate was a very fair approximation of the amount of legal work
performed by OLC for DWE and DUI during this period” because we were not provided
acceptable documentation that would support his conclusion.

Third, the “work logs” reviewed by the head of DWD’s Office of Legal Counsel do not constitute
acceptable documentary support for the level of effort that may have been devoted to DOL grant
awards administered by DWE and DUI. Some work log entries may involve only 1 or 2 hours of
legal work, while other log entries may involve hundreds of hours of effort. In addition, DWD
acknowledged in its response that the “work logs do not reflect all of the legal office staff effort. . .
.” Accordingly, the work logs are not an acceptable basis for concluding that Office of Legal
Counsel costs are allocated on the basis of “relative benefits received.”

Fourth, we disagree with DWD’s argument that DUI attorneys who “direct charge” the UI program
“do not serve the same purpose as the DWD Legal Counsel attorneys” whose costs are included in
a departmental indirect cost pool for allocation out to all final cost objectives (including the UI grant
program). We agree that the DUI attorneys specialize in, and provide legal support to, the UI
program. However, the fact remains that all of DWD’s other programs and cost objectives obtain
their legal program support from the Office of Legal Counsel. At a result, the UI grants pay for their
own legal program support services as direct costs, and then absorb a portion of the legal program
support costs (properly allocable to DWD’s other State and Federal programs) through DWD’s
indirect cost pool in violation of the Federal cost principles set forth in OMB Circular A-87,
Attachment A, paragraph C.1.f., and Attachment E, paragraph A.1.

Finally, it is true that the “suggested” cost distribution base of “direct hours” for legal services is
presented in the OMB Circular A-87 implementation guide (ASMB C-10) in the form of a
suggestion/recommendation. However, the reason the implementation guide recommends “direct
hours” as the allocation base for legal services costs is that Federal experience has shown that it is
the best base for ensuring that such costs are distributed on the basis of “relative benefits received.”
 Based on data obtained in our interviews of Office of Legal Counsel staff attorneys, only about 5
percent of their time is spent on legal services on behalf of DOL grant programs administered by
DWE and DUI, whereas about 38 percent of Office of Legal Counsel costs were allocated to DOL
grant awards using FTEs as the allocation base during the period covered by our audit.

Based on our audit results, DOL grant awards were clearly overcharged for Office of Legal
Services costs. Moreover, as previously discussed, even if we assume that the information we
obtained from the staff attorneys were correct and that 5 percent of their time had, in fact, been


OIG Report 03-03-001-03-315                                                                             12
spent on legal services for DOL grant awards, DWD failed to maintain the required personnel
activity reports to support these costs. We believe DOL should disallow all Office of Legal
Services costs charged directly or indirectly to DOL grant awards until such time as these costs are
properly supported by personnel activity reports that meet the criteria set forth in OMB Circular A-
87.

B. Estimated General Administration Pool Costs Were Not Adjusted to Actual Costs

Our audit disclosed that the amount of General Administration pool costs allocated to DOL grants
administered by DUI and DWE exceeded DWD’s actual incurred General Administration pool
costs allocable to DOL grants by $2,147,099 during SFYs 1998, 1999, and 2000 (after deleting
the Office of Legal Counsel costs questioned above).

OMB Circular A-87, Attachment B, paragraph 11.h(5)(e) states — “Budget estimates or other
distribution percentages determined before the services are performed do not qualify as support for
charges to Federal awards, but may be used for interim accounting purposes, provided that . . . they
are periodically adjusted to actual costs.” This Federal cost principle is further emphasized in
Attachment E to both OMB Circular A-87, and the implementing guidelines set forth in ASMB C-
10, with respect to indirect cost rate proposals. A provisional rate is a temporary rate, agreed to
in advance, based on an estimate of the costs to be incurred; however, it is subject to retroactive
adjustment at a future date after actual costs are known. A fixed rate is also agreed to in advance,
based on an estimate of future costs, but it is not retroactively adjusted; instead, the difference
between estimated and actual costs is carried forward to future years. A final rate is established
only after actual allowable costs are known.

As previously discussed in this report, DWD’s General Administration pool costs were charged to
DUI and DWE using PR-S rates, based on budget estimates, which, in turn, were allocated to the
DOL grants administered by DUI and DWE based on actual FTEs.

When we compared the total amounts allocated to DOL grants administered by DUI and DWE,
using the PR-S rates based on budget estimates, with the total actual allowable General
Administration pool costs allocable to the DOL grants, we noted that DWD had over-recovered its
actual costs by a substantial amount in each of the 3 years covered by our review ($702,500 in
1998; $707,733 in 1999; and $736,866 in 2000).

DWD officials contended that its over-recoveries had been carried forward and offset against its
budget estimates for succeeding years through the two-step process used to calculate the PR-S
rates in each succeeding year.

The fact that DWD had substantial over-recoveries on DOL grants in each of the three consecutive
years, despite the fact that its total estimated General Administration pool costs had remained
relatively constant over this same period, indicates that DWD either (1) did not periodically adjust


OIG Report 03-03-001-03-315                                                                        13
its General Administration pool charges to DOL grants to actual allowable costs, as required by
Federal cost principles, or (2) the methodology used by DWD was flawed. For example, if we
were to assume that DWD’s SFY 1999 costs, allocation base, and all other variables had remained
identical to those for SFY 1998 (resulting in the $702,500 over-recovery), a proper carry-forward
would have produced a $702,500 under-recovery on the DOL grants in SFY 1999 to offset the
$702,500 over-recovery in SFY 1998. Instead, DWD had another significant over-recovery
totaling $707,733.

According to ASD officials, any over/under-recoveries of General Administration pool costs on
DOL grants in a given year are automatically carried forward to the following year by adding a
“Dollar Cash Balance Target” to its estimated expenditures for the coming year, and subtracting its
“Current Cash Balance.” They explained that the “Dollar Cash Balance Target” was a variable for
a working capital reserve, and that the “Current Cash Balance” was the carry-forward balance of
prior year actual expenditures less the amount recovered based on the PR-S rates of the previous
year. Finally, ASD further adjusts for the costs of any services the General Administration pool may
have received from, or provided to, any of the other ASD support functions. The resulting balance
is then divided by the estimated billable units to arrive at the proposed PR-S rate.

We were unable to properly evaluate the effectiveness of the above methodology because DWD
was unable to provide the audit team with the necessary supporting documentation for SFY 1999.
In addition, the above methodology is unnecessarily complex, and introduces subjective elements,
such as the “Dollar Cash Balance Target,” which DWD has acknowledged is a variable for a
“working capital reserve.” DWD’s working capital needs are not relevant to the point at issue in
this finding. Further, the introduction of such subjective elements tends to confuse the issue of
DWD’s alleged carry-forward of the apparent over-recoveries of indirect costs on the DOL grants.

Accordingly, we are questioning all of the $2,147,099 in General Administration pool costs over-
recovered by DWD in SFYs 1998, 1999, and 2000.

Auditee’s Response

DWD disagreed with the finding on the grounds that its General Administration was considered a
“billed service” and DWD was in full compliance with the requirements for “billed services” that are
contained in A-87. DWD also contended that the references from OMB Circular A-87 listed in the
audit report did not apply to the methodology that DWD utilizes for its General Administration cost
pool because it was a “billed service.” In support of this position, DWD cited OMB Circular A-
87, Attachment E, paragraph F.2. which states, in part:

        In some cases, governmental units provide and bill for services similar to those
        covered by central services costs allocation plans (e.g., computer centers). Where
        this occurs, the governmental unit should be guided by the requirements in



OIG Report 03-03-001-03-315                                                                        14
        Attachment C relating to the development of billing rates and documentation
        requirements, and should advise the cognizant agency of any billed services.

DWD stated that it was adhering to the requirements in Attachment C for all of its PR-S cost pools
of which General Administration is one. The methodology has also been approved in the
Negotiation Agreement between DWD and the U.S. Department of Labor, Office of Cost
Determination.

DWD also cited OMB Circular A-87, Attachment C, paragraph G.4., regarding adjustments to
billed central services costs, as follows:

        Billing rates used to charge Federal awards shall be based on the estimated costs of
        providing the services, including an estimate of the allocable central service costs. A
        comparison of the revenue generated by each billed service (including total revenues
        whether or not billed or collected) to the actual allowable costs of the service will be
        made at least annually, and an adjustment will be made for the difference between
        the revenue and the allowable costs. These adjustments will be made through one of
        the following adjustments: (a) a cash refund to the Federal Government for the
        Federal share of the adjustment, (b) credits to the amounts charged to the individual
        programs, (c) adjustments to future billing rates, or (d) adjustments to allocated
        central service costs.

DWD stated that it adjusted for “cash surpluses/deficits” by adjusting the next year’s billing rates
pursuant to Attachment C, paragraph G.4., cited above.

DWD also disagreed with the auditor’s statement that its rate-setting process was “unnecessarily
complex.” DWD noted that its current procedures for setting the billing rates reflect the essential
factor needed to accurately adjust the rates for the actual cash balances, the allowable working
capital reserve, the estimated activity, and the extent to which each cost pool provides services to
other cost pools, and, accordingly, was not “unnecessarily complex.”

DWD also took exception to the auditor’s statement that “DWD’s working capital needs are not
relevant to the point at issue in this finding.” DWD noted that OMB Circular A-87, Attachment C,
paragraph D.2., allows billed central services to include “working capital reserves” in addition to the
full recovery of costs, as follows:

        Internal service funds are dependent upon a reasonable level of working capital
        reserve to operate from one billing cycle to the next. Charges by an internal service
        activity to provide for the establishment and maintenance of a reasonable level of
        working capital reserve, in addition to the full recovery of costs, are allowable. A
        working capital reserve as part of retained earnings of up to 60 days cash expenses
        for normal operating purposes is considered reasonable. A working capital reserve


OIG Report 03-03-001-03-315                                                                            15
        exceeding 60 days may be approved by the cognizant Federal agency in exceptional
        cases.

Auditor’s Conclusion

DWD’s written response did not provide any new or compelling evidence that would warrant any
change in this finding, nor the related conclusions and recommendations. DWD’s response is based
entirely on the premise that its ASD’s General Administration cost pool is a “billed central service”
(as defined in Attachment C, OMB Circular A-87) and, accordingly, DWD is entitled to a
“working capital reserve” of up to 60 days cash expenses for normal operating purposes.

DWD’s response did not consider the Federal cost principles set forth in OMB Circular A-87,
Attachment C, and the implementing guidelines contained in ASMB C-10. A closer reading of
Attachment C and the implementing guidelines shows that they pertain only to Central Services Cost
Allocation Plans (CSCAPs) – commonly referred to as the statewide cost allocation plan or
SWCAP, and for local governments, LOCAP. The “allocated” costs of the CSCAP are
commonly referred to as the “Section I” costs, while the internal service funds and other “billed”
services included in the CSCAP (e.g., self-insurance funds, fringe benefits costs, and pension and
postretirement health insurance plans) are commonly referred to as “Section II” costs. The Federal
cost principles and the implementing guidelines require that the CSCAPs be submitted to and
approved by the Department of Health and Human Services. In addition, the Federal cost
principles require very specific and detailed documentation for all “billed” services including, among
other things:

•   a balance sheet for each fund based on individual accounts contained in the governmental unit’s
    accounting system;
•   a revenue/expenses statement with revenues broken out by source;
•   a list of non-operating transfers into and out of the fund;
•   a description of the methodology used to charge the costs of each service to users, including
    how billing rates are determined;
•   a schedule of current rates;
•   a schedule comparing total revenues (including imputed revenues) generated by the service to
    the allowable costs of the service under Circular A-87, with an explanation of how variances
    will be handled; and
•   a “Reconciliation of Retained Earnings” for all billed central services. For funds which utilize
    multiple billing rates, a reconciliation schedule may be required for each billing rate because
    various users do not utilize each/all billed services to the same extent.

Further, while Attachment C, paragraph G.2. permits working capital reserves up to 60-day cash
needs, the implementation guidelines in ASMB C-10 expressly state that:




OIG Report 03-03-001-03-315                                                                        16
        Reserves are only allowable for enterprise funds and bona fide ISFs [internal service
        funds] recognized in the government’s comprehensive annual financial report
        (CAFR). Reserves are not allowable for activities funded through general revenue
        appropriations.

Our audit disclosed that DWD failed to meet these various requirements for “billed” central
services. First, the various DWD overhead cost pools (including General Administration) only
benefited the operating divisions and programs within DWD – they did not routinely provide central
services (such as a State motor pool or a State data processing center) to other State agencies.

Second, the “billed” costs were actually “allocated” out to the benefiting operating divisions
according to DWD’s annual indirect cost proposals. More specifically, DWD’s annual indirect cost
proposals specifically state that the PS-R rates are used for “allocating” PR-S charges to the
benefiting fund sources. For example, the SFY 1999 General Administration overhead pool
(including such departmental overhead units as the Office of the Secretary, Procurement Bureau,
Human Resources Bureau, Payroll Section in the Finance Bureau, etc.) is “allocated” out to the
benefiting programs at the PR-S rate of $307 per FTE per month. The fact that DWD uses a dollar
amount instead of a percentage factor to charge these costs to the benefiting cost objectives does
not mean that this overhead pool is “billed” rather than “allocated.”

Third, DWD submits it indirect cost rate proposals containing the PR-S rates to DOL for review
and approval to the U.S. Department of Labor’s Office of Cost Determination – not to the
Department of Health and Human Services which has cognizance over CSCAPs.

Fourth, DWD’s annual indirect cost proposals failed to include the various documentation discussed
above that are required by Federal cost principles to support the billing rates for valid central
services.

Fifth, we verified with the Wisconsin Legislative Audit Bureau that neither DWD nor its various
departmental overhead pools were recognized in the State’s comprehensive annual financial reports
as enterprise funds or bona fide internal service funds. Accordingly, DWD is not entitled to include
a factor for 60-day working capital reserves into the PR-S rates it uses to “allocate” its
departmental overhead costs out to its operating divisions (and, in turn, to DOL grant awards).
Further, DWD’s need for a 60-day working capital reserve is also negated by the fact that DWD
has letters-of-credit on its various DOL grant awards that permit it draw Federal funds overnight to
cover any and all allowable costs properly allocable to its DOL grants.

In summary, DWD has incorrectly applied the provisions of Attachment C of Circular A-87 to its
General Administration cost pool (and its various other departmental overhead pools), in order to
maintain a 60-day working capital reserve. DWD needs to revise its indirect cost rate proposals to
comply with the provisions of Attachment E to Circular A-87 (State and Local Indirect Cost Rate
Proposals), and exclude all elements pertaining to its stated need for working capital reserves (e.g.,


OIG Report 03-03-001-03-315                                                                         17
“Current Cash Balance” and “Dollar Cash Balance Target”). In addition, pursuant to OMB
Circular A-87, Attachment E, paragraph F.5, DWD should refund to DOL the excess amounts
charged to DOL grant awards as discussed above.

Accordingly, the finding stands as written.




OIG Report 03-03-001-03-315                                                               18
FINDING 2. DUI Did Not Allocate Its Share of the DWD ASD-Finance Indirect Cost
           Pool to “All” DUI Cost Objectives on the Basis of “Relative Benefits
           Received”


The DWD ASD-Finance indirect cost pool includes the costs associated with the Finance Bureau,
excluding the payroll department, and is allocated to the different divisions of DWD based on the
amount of expenditures for each division. Our audit disclosed that DUI charged 100 percent of its
allocated share of the ASD-Finance cost pool to a single DOL grant, instead of all grants
administered by DUI, in violation of Federal cost principles set forth in OMB Circular A-87. As a
result, $120,985 in indirect costs, properly allocable to non-DOL programs within DUI, were
improperly shifted to DOL grant awards during SFYs 1998, 1999, and 2000.

The following table summarizes the total amounts overcharged to DOL grants within DUI. Our
calculations were based on actual incurred costs, rather than the budget estimates used by DWD in
its cost allocation plans.

                      DWD ASD-FINANCE INDIRECT COST POOL
                                        (dollars in thousands)

                      Description                                1998      1999      2000      Total

Total DWD ASD-Finance Cost Pool (actual costs)                   $3,161    $3,449    $3,079    $9,689

    Total DWD ASD-Finance Cost Pool Allocated to                     213       220       135     568
    DOL Grants Administered by DUI

    Total Allowable DWD ASD-Finance Cost Pool
    Costs Which Should have been Allocated to DOL                    155       194        99     448
    Grants Administered by DUI

Total Amount Overcharged to DOL Grants                           $    58   $    26   $    36   $ 120

During our review of the cost allocation plans for the divisions of DWD, we noted that most of the
divisions include their allocated DWD ASD-Finance cost pool costs in their division overhead pool,
which is then allocated to all projects within their respective divisions on an equitable basis.
However, for DUI we noted that a portion of the DWD ASD-Finance cost pool, which had been
allocated to DUI by ASD, had been charged 100 percent to a single DOL grant award rather than
being allocated to all programs and activities within the division. This is a clear violation of the
Federal cost principles set forth in OMB Circular
A-87.

DWD officials stated that allocating 100 percent of the DWD ASD- Finance cost pool to a single
DOL grant was reasonable and complied with OMB Circular A-87 because the overall DUI


OIG Report 03-03-001-03-315                                                                       19
mission supported DOL objectives. However, under Federal cost principles, we believe that the
State projects and other non-DOL Federal projects administered by DUI must bear their fair share
of these costs.

We took the total amount of DWD ASD-Finance costs allocated to DUI and allocated them to all
projects within DUI using the same method DUI used to allocate its division overhead. Based on
this reallocation, we determined that DOL grants within DUI were overcharged a total of $120,985
during SFYs 1998, 1999, and 2000.

Auditee’s Response

DWD did not agree with this audit finding. In its written response, DWD stated that DUI allocated
its ASD-Finance pool costs in the DUI division overhead cost pool for all of the years being
audited. The allocation methodology was incorrectly stated in the DWD’s cost allocation plans that
will be revised and resubmitted to the appropriate Federal agencies.

Auditor’s Conclusion

DWD’s written response did not provide any new or compelling evidence that would warrant any
change in this finding, nor the related conclusions and recommendations. Also, DWD’s written
response (to the effect that the allocation methodology was incorrectly stated in DWD’s cost
allocation plans) contradicts statements made by DUI officials to the audit team during our fieldwork
that “allocating 100 percent of the DWD ASD-Finance pool to a single DOL grant was
reasonable.” Nevertheless, when we allocated the ASD-Finance pool costs charged to DUI out
over all benefiting DUI cost objectives under Federal cost principles, the amount properly allocable
to DOL grant awards dropped by a total of $120,985.

Accordingly, the finding stands as written.




OIG Report 03-03-001-03-315                                                                       20
FINDING 3. DUI and DWE Did Not Allocate Their Share of the DWD
           Application/Database Servers Indirect Cost Pool to “All” DUI and DWE
           Cost Objectives on the Basis of “Relative Benefits Received”


The DWD Application/Database Servers indirect cost pool includes the costs associated with the
Oracle database, Interactive Voice Response systems, Internet, Lotus Notes systems, and Data
Warehouse, and is allocated to the different divisions of DWD based on the number of users. Our
audit disclosed that both DUI and DWE charged 100 percent of their share of the
Application/Database Servers indirect cost pool to a single DOL grant award in each of their
respective divisions, instead of all grants and programs administered by them, in violation of Federal
cost principles set forth in OMB Circular A-87. As a result, $933,306 in indirect costs, properly
allocable to non-DOL programs within these two divisions, were improperly shifted to DOL grant
awards during SFYs 1998, 1999, and 2000.

The following table summarizes the total amounts over/undercharged to DOL grants within DUI and
DWE. Our calculations were based on actual incurred costs, rather than the budget estimates used
by DWD in its cost allocation plans.

            APPLICATION/DATABASE SERVERS INDIRECT COST POOL
                                         (dollars in thousands)

                  Description                         1998         1999         2000         Total

 Total Application/Database Servers Cost
 Pool (actual costs)                                   $2,620      $3,669        $2,974       $9,263

 Total Application/Database Servers Cost
 Pool Allocated to DOL Grants Administered
 by DUI and DWE                                         3,052        1,541        2,465        7,058

 Total Allowable Application/Database
 Servers Cost Pool Which Should Have Been
 Allocated to DOL Grants Administered by
 DUI and DWE                                            2,535        1,590        2,000        6,125

 Total Amounts Over/(Under) Charged to
 DOL Grants                                            $ 517       $ (49)        $ 465        $ 933

During our review of the cost allocation plans for the divisions of DWD, we noted that most of the
divisions include their allocated DWD Application/Database Servers pool costs in their division
overhead pool, which is then allocated to all projects within their respective divisions on an equitable
basis. However, we noted that both DUI and DWE had charged 100 percent of their share of the
Application/Database Servers indirect cost pool to a single DOL grant award in each of their


OIG Report 03-03-001-03-315                                                                          21
respective divisions rather than allocating these costs to all programs and activities within these two
division. This is a clear violation of the Federal cost principles in OMB Circular A-87.

DWD officials stated that allocating 100 percent of the Application/Database Servers cost pool to a
single DOL grant within DUI and DWE was reasonable and complied with OMB Circular A-87
because the overall DUI and DWE missions support DOL’s objectives. However, under Federal
cost principles, we believe that the State projects and other non-DOL Federal projects
administered by DUI and DWE must bear their fair share of these costs.

We took the total amount of DWD Application/Database Servers indirect cost pool allocated to
DUI and DWE and reallocated them to all projects within DUI and DWE using the same method
DUI and DWE used to allocate their division overhead. Based on this reallocation, we determined
that DOL grants within DUI and DWE were overcharged a total of $933,306 during SFYs 1998,
1999, and 2000.

Auditee’s Response

DWD did not agree with this audit finding. In its written response, DWD stated that DUI and DWE
fund applications through the Applications/Database Server cost pool. DWD said it disagreed that
these applications should be allocated on an FTE basis through the division overhead allocation
process because they only benefit DOL grants activities and are appropriately 100 percent funded
by DOL grants. The specific applications directly managed by each division and funded from the
Applications/Database cost pool are summarized in the following paragraphs.

     Division of Unemployment Insurance. Application and database charges incurred by DUI
     relate to four areas – the Oracle database, the Interactive Voice Response (IVR) system,
     Lotus Notes, and the Internet.

     •   DUI staff accesses the Oracle database to inquire, update, and create initial and continued
         unemployment claim information.
     •   The Interactive Voice Response system is used by unemployment claimants to file initial or
         continued unemployment claims.
     •   The Lotus Notes application is used to track state legislation affecting the unemployment
         insurance program as well as the critical indicators of the unemployment insurance
         program.
     •   DUI’s charges for the Internet were based on the number of hits made to the
         Unemployment Insurance website. The website contains general information about the
         program as well as on-line employer reporting.




OIG Report 03-03-001-03-315                                                                          22
     Division of Workforce Excellence. In SFY 1998-2000, DWE incurred application
     and database costs for JobNet and apprenticeship programs:

      •    The majority of the application and database cost (96 percent of the cost in SFY
          1999, for example) is associated with JobNet. JobNet is an Internet application
          that links employers and job seekers. Using the DOL grant to fund JobNet is
          consistent with section 7.a.3.D of the Wagner-Peyser Act that states that 90
          percent of the sum allotted to each state pursuant to section 6 may be used for
          developing and providing labor market and occupational information.
      •    A small portion of the application and development cost is associated with the
          apprenticeship program. Using the DOL grant to fund the apprenticeship program
          is consistent with sections 7.a.1 and 7.a.2 of the Wagner-Peyser Act that state that
          90 percent of the sum allotted to each state pursuant to section 6 may be used:

          1.   For job search and placement services to job seekers including counseling,
               testing, occupational and labor market information, assessment and referral to
               employers.
          2.   For appropriate recruitment services and special technical services for
               employers.”

Auditor’s Conclusion

DWD’s written response did not provide any new or compelling evidence that would warrant any
change in this finding, nor the related conclusions and recommendations. As discussed in the body
of this finding, the DWD Application/Database Servers indirect cost pool is allocated out to the
various operating divisions within DWD based on the number of users. Most of the other operating
divisions within DWD included the Application/Database Server pool costs in their division
overhead pool which was then allocated out to all projects within their respective divisions based on
FTEs.

DWD’s written response regarding the Application/Database Server costs allocated to DUI
focused solely on how DUI used these various services to benefit the UI program. However, the
fact that other DWD operating divisions also utilize the services of the Application/Database Server
show that these services (e.g., the internet, Lotus Notes, etc.) are not unique to the UI program.
While DWD’s response was silent about how and to what extent DUI’s State and other Federal
programs also used these various services, it is reasonable to assume that if other DWD divisions
(other than DUI and DWE) are using the services of the Application/Database Server, then the
State and other Federal programs within DUI also use these services and should, therefore, be
allocated a share of these costs. DWD’s response provided no evidence showing that the State
and other Federal programs within DUI did not benefit from these services.




OIG Report 03-03-001-03-315                                                                       23
Regarding the Application/Database Server costs allocated to DWE, DWD has taken the position
that, because certain State programs (i.e., JobNet and apprenticeship programs) may have certain
objectives in common with the Wagner-Peyser DOL grant award, it is acceptable to shift the
Application/Database Server costs incurred by these State programs over to the DOL grant. This
position is contrary to the Federal cost principles set forth in OMB Circular A-87, and the
implementing guidelines thereto, which state that all activities which benefit from the governmental
unit’s indirect costs (including unallowable activities and services donated to the governmental unit
by third parties) must receive an allocation of indirect costs in accordance with “relative benefits
received by each activity or program.” Cost shifting is unallowable.

Accordingly, the finding stands as written.




OIG Report 03-03-001-03-315                                                                         24
FINDING 4. DWD Used Manual Vouchers to Improperly Shift Costs from a Non-DOL
           Program to DOL Grants


Our audit identified two manual vouchers, totaling $159,000, which stated that the costs were being
shifted from a State project (a non-DOL program) to DOL grants because the State project had
reached its budget limit. DWD charged certain costs (e.g., master leases payments, etc.) to clearing
accounts, and then uses manual vouchers to reallocate the clearing account costs to all of the
projects that benefited from these costs.

OMB Circular A-87, Attachment A, provides general principles for determining allocable costs,
both direct and indirect, including the following in section C.3:

     a. A cost is allocable to a particular cost objective if the goods or services involved are
     chargeable or assignable to such cost objective in accordance with relative benefits
     received.
     b. All activities which benefit from the governmental unit’s indirect costs, including
     unallowable activities and services donated to the governmental unit by third parties, will
     receive an appropriate allocation of indirect costs.
     c. Any costs allocable to a particular Federal award or cost objective under the
     principles provided for in this Circular may not be charged to other Federal awards to
     overcome fund deficiencies, to avoid restrictions imposed by law or terms of the Federal
     awards, or for other reasons. However, this prohibition would not preclude governmental
     units from shifting costs that are allowable under two or more awards in accordance with
     existing program agreements.

Similarly, section F.3b of Attachment A states that “Amounts not recoverable as indirect costs or
administrative costs under one Federal award may not be shifted to another Federal award, unless
specifically authorized by Federal legislation or regulation.” Although both sections (C.3c and F.3b)
expressly prohibit the shifting of costs from one Federal award to another Federal award, we
believe that these general principles are even more applicable in this particular case that involves the
shifting of costs from a State program to a Federal award.

DWD officials stated that moving these costs to the DOL grants were allowable and reasonable.
However, they provided nothing documenting that this shift in costs from a State program to this
particular Federal grant award was expressly authorized in a written program agreement or Federal
legislation/regulation. Therefore, we believe that the shifting of costs constitutes a clear violation of
the general cost principles cited above, and that the $159,000 of costs shifted to the DOL grant
award are unallowable.




OIG Report 03-03-001-03-315                                                                            25
Auditee’s Response

DWD stated that it did not agree with this finding because the questioned costs were for information
technology upgrades that enhanced the database used to track trainees, employers and training
programs related to its State apprenticeship program. According to DWD, this activity is an
allowable charge to Wagner-Peyser per Section 7.a.3.E of the Wagner-Peyser Act which states
that:

        Ninety percent of the sums allotted to each state pursuant to section 6 may be used
        for developing a management information system and compiling and analyzing
        reports therefrom.

DWD also stated that the State apprenticeship program was an allowable charge to Wagner-Peyser
per Sections 7.a.1 and 7.a.2 which state that:

        Ninety percent of the sum allotted to each state pursuant to section 6 may be used
        1) for job search and placement services to job seekers including counseling,
        testing, occupational and labor market information, assessment, and referral to
        employers and 2) for appropriate recruitment services and special technical services
        for employers.

DWD further stated that since the activities and program covered by these manual vouchers are
allowable charges to Wagner-Peyser, the shifting of costs to Wagner-Peyser is allowable under
OMB Circular A-87, Attachment A, Section C.3.c which states:

        Any costs allocable to a particular Federal award or cost objective under the
        principles provided for in this Circular may not be charged to other Federal awards
        to overcome fund deficiencies, to avoid restrictions imposed by law or terms of the
        Federal awards, or for other reasons. However this prohibition would not preclude
        governmental units from shifting costs that are allowable under two or more awards
        in accordance with existing program agreements.

Finally, DWD stated that it believes that these general principles are applicable in this particular case
even though it involves shifting of costs from a State program to a Federal award i.e., this shifting of
costs is acceptable because the costs are also allowable under Wagner-Peyser.

Auditor’s Conclusion

Again, DWD has argued that because its State apprenticeship program has certain objectives in
common with the Federal Wagner-Peyser grant award, costs properly allocable to the State
program may be shifted to the Federal grant. In addition, DWD cited a particular provision in
OMB Circular A-87 that it believes permits the shifting of costs from State programs to Federal


OIG Report 03-03-001-03-315                                                                           26
grant awards. However, the position it has taken violates a number of basic Federal cost principles
previously discussed in this report (e.g., costs must be charged/allocated on the basis of “relative
benefits received;” all activities which benefit from the costs, including unallowable activities, must
receive a appropriate allocation of such costs; costs may not be shifted to other cost objectives to
overcome fund deficiencies or for other reasons; etc.).

The cost principle cited by DWD as justification for its shifting of costs for a State program to a
Federal grant awards (OMB Circular A-87, Attachment A, paragraph C.3.a.) expressly prohibits
the shifting of costs from one Federal grant to another Federal grant to overcome fund deficiencies,
or for other purposes. The possible exception cited in that paragraph also pertains to shifting costs
from one Federal grant award to another Federal grant award – it does not permit shifting costs
from State programs to Federal grant awards.

This possible exception is addressed in more detail in paragraphs 2-12, 2-13, 2-14, and 2-16 in the
ASMB C-10 implementing guidelines to OMB Circular A-87. In summary, these paragraphs make
very clear that the basic underlying cost principles (previously cited) must be followed, and that any
shifting of “unallocable” costs, or the costs of “common activities,” would be permitted only with
the express authorization of the head of the awarding agency. In the absence of such authorization,
costs must be allocated to all benefiting programs on the basis of “relative benefits received.”

In summary, there is no express authority in the Federal cost principles to shift costs from a State
program to which such costs are properly allocable, to a Federal grant award, simply because they
may have some broad objectives in common. Even if there were such criteria in the Federal cost
principles, DWD has not provided any evidence that the Secretary of the U.S. Department of
Labor has authorized the shifting of State apprenticeship costs to the Wagner-Peyser grant award.

Accordingly, the finding stands as written.




OIG Report 03-03-001-03-315                                                                          27
                   CONCLUSIONS AND RECOMMENDATIONS


CONCLUSIONS

Based on the results of our audit, we have concluded that DWD has overcharged DOL grant
awards a total of $3,819,850 in indirect costs over the 3-year period ended June 30, 2000. This
occurred because DWD has failed to implement adequate internal control policies and procedures
to ensure compliance with Federal cost principles mandated by OMB Circular
A-87, the “Common Rule” (as implemented by DOL at 29 CFR 97), and the terms and conditions
of the various DOL grants.

As discussed in the body of this report, our audit disclosed that:

1.   DWD’s General Administration pool costs improperly included Office of Legal Counsel costs
     which were allocated to DOL grants on a basis other than “relative benefits received,” and
     General Administration pool costs charged to DOL grants, on the basis of budget estimates,
     were not periodically adjusted to actual costs as required by Federal cost principles.

2.   DUI did not allocate its share of the DWD ASD-Finance indirect cost pool to “all” DUI cost
     objectives on the basis of “relative benefits received.” Instead, DUI charged 100 percent of
     its allocated share of the ASD-Finance cost pool to a single DOL grant rather than all grants
     administered by DUI, in violation of the Federal cost principles set forth in OMB Circular A-
     87.

3.   DUI and DWE did not allocate their respective shares of the DWD Application/Database
     Servers indirect cost pool to “all” DUI and DWE cost objectives on the basis of “relative
     benefits received.” Instead, they charged the costs associated with the Application/Database
     Servers cost pool to a single DOL grant award in each of their respective divisions rather than
     to all of the grants and programs administered by them, in violation of the Federal cost
     principles set forth in OMB Circular A-87.

4.   DWD used manual vouchers to improperly shift costs from a State project to a DOL project
     because the State project had reached its budget limit.

DWD officials stated that they believed their methodology for allocating the above costs was
reasonable and complied with OMB Circular A-87. However, they did not provide any
documentation or other evidence to support this position. We believe that the facts presented in this
report clearly demonstrate that the costs we questioned did not meet the allowability, allocability,
and reasonableness criteria mandated by the Federal cost principles in OMB Circular A-87, and
are, therefore, unallowable.


OIG Report 03-03-001-03-315                                                                       28
In summary, the findings discussed above resulted in an improper shifting of costs totaling about
$3,819,850 from DWD State and other non-DOL Federal programs to DOL grants in DUI and
DWE. We expect that a similar overcharge of indirect costs on DOL grants will also occur in SFYs
2001 and 2002 because the conditions discussed above had not changed as of the completion of
our fieldwork in December 2001.

RECOMMENDATIONS

We recommend that:

1.   The cognizant DOL Grant Officer(s) direct DWD to refund the $3,819,850 in unallowable
     costs questioned in this report, pursuant to OMB Circular A-87, Attachment E, paragraph
     E.4. (Findings 1, 2, 3, and 4.)

2.   The cognizant DOL Grant Officer(s) direct DWD to adjust its billings to DOL grants for
     FYs 2001 and 2002 indirect costs to preclude further overcharges of indirect costs attributed
     to the findings in this report. (Findings 1, 2, 3, and 4.)

3.   The Assistant Secretary for Employment and Training direct DWD to develop and implement
     written internal control policies and procedures to ensure that its methodology for charging
     indirect costs to DOL grants fully complies with the reasonableness, allocability, and
     allowability criteria mandated by OMB Circular A-87. (Findings 1, 2, 3, and 4.) These
     internal control policies and procedures should ensure that:

     a.   DWD Office of Legal Counsel costs are direct-charged to the benefiting cost objectives
          rather than being included in the General Administration cost pool and allocated to DOL
          grants on a basis other than relative benefits received. (Finding 1.)

     b.   DWD’s General Administration pool costs are adjusted annually to actual costs in
          accordance with OMB Circular A-87, and the implementing guidelines set forth in ASMB
          C-10. (Finding 1.)

     c.   DWD ASD-Finance cost pool costs are allocated to all projects within DUI through the
          divisional overhead rate. (Finding 2.)

     d.   Application/Database Servers cost pool costs are allocated to all projects within DUI and
          DWE through the divisional overhead rate. (Finding 3.)

     e. Costs are not shifted from one project to another to overcome fund deficiencies. (Finding
        4.)




OIG Report 03-03-001-03-315                                                                      29
                                 TICHENOR & ASSOCIATES , LLP
                         CERTIFIED PUBLIC ACCOUNTANTS AND MANAGEMENT CONSULTANTS
                                 304 M IDDLETOWN PARK PLACE , SUITE C
                                         LOUISVILLE, KY 40243

                                       BUSINESS: (502) 245-0775
                                         FAX: (502) 245-0725
                                  EMAIL: TICHENORKY@AOL.COM




Mr. Elliot P. Lewis
Deputy Inspector General for Audit
Office of Inspector General
U.S. Department of Labor
Frances Perkins Building, Room S-5518
200 Constitution Ave. NW
Washington, DC 20210

              INDEPENDENT ACCOUNTANT’S REPORT ON AUDIT

Tichenor & Associates, LLP, under contract to the U.S. Department of Labor (DOL), Office of
Inspector General, conducted an audit of indirect costs charged to DOL grants administered by the
State of Wisconsin’s Department of Workforce Development (DWD) for State fiscal year 2000, to
determine whether such costs were reasonable, allowable, and allocable under the Federal cost
principles set forth in OMB Circular A-87. The audit objectives provided that, depending on the
results of our initial audit efforts on DOL unemployment insurance grants, the scope of the audit
could be expanded to include additional years and other DOL grant programs.

The preliminary results of our audit indicated several potential problems with the allocation of
indirect costs to the various cost objectives. Accordingly, we focused the balance of our audit on
the DWD allocation of the costs of Administration Support Division, an administrative and support
division of DWD, to the Division of Unemployment Insurance (DUI) and Division of Workforce
Excellence (DWE), both operating/program divisions of DWD, for State fiscal years (SFYs) ended
June 30, 1998, 1999, and 2000.

We were not engaged to, and did not perform, an audit of DWD’s total costs charged to DOL
grants, the objective of which would have been the expression of an opinion on the total costs
claimed by DWD, and, accordingly, we do not express such an opinion. In addition, the extent of
our work on internal controls and compliance was limited to that necessary to fully develop the
specific problems/findings disclosed by our audit in accordance with Government Auditing
Standards.




OIG Report 03-03-001-03-315                                                                     30
Based on the results of our audit, we questioned a total of $3,819,850 in indirect costs charged to
DOL grants administered by DUI and DWE during SFYs ended June 30, 1998, 1999, and 2000
which were not in compliance with the Federal costs principles mandated by OMB Circular A-87.

Specifically, we found that:

(1) DWD’s General Administration pool costs improperly included Office of Legal Counsel costs
    which was allocated to DOL grants on a basis other than “relative benefits received;” and
    General Administration pool costs charged to DOL grants, on the basis of budget estimates,
    were not periodically adjusted to actual costs as required by Federal cost principles.

(2) DUI did not allocate its share of the DWD ASD-Finance indirect cost pool to “all” DUI cost
    objectives on the basis of “relative benefits received.” Instead, DUI charged 100 percent of
    its allocated share of the ASD-Finance cost pool to a single DOL grant rather than all grants
    administered by DUI, in violation of the Federal cost principles set forth in OMB Circular A-
    87.

(3) DUI and DWE did not allocate their respective shares of the DWD Application/Database
    Servers indirect cost pool to “all” DUI and DWE cost objectives on the basis of “relative
    benefits received.” Instead, they charged the costs associated with the Application/Database
    Servers cost pool to a single DOL grant award in each of their respective divisions rather than
    all of the grants and programs administered by them, in violation of the Federal cost principles
    set forth in OMB Circular A-87.

(4) DWD used manual vouchers to improperly shift costs from a State project to a DOL project
    because the State project had reached its budget limit.

In summary, we questioned a total of $3,819,850 in indirect costs charged to DOL grants
administered by DUI and DWE during SFYs ended June 30, 1998, 1999, and 2000, because the
costs did not meet Federal cost principles mandated by OMB Circular
A-87.

This engagement was performed in accordance with applicable standards established by the
American Institute of Certified Public Accountants and the Government Auditing Standards
issued by the Comptroller General of the United States. Our engagement did not include expressing
a written opinion on the reasonableness and allowability of DWD’s total claimed costs, the
adequacy of its overall system of internal controls, or its overall compliance with laws and
regulations applicable to Federal grants. Our detailed findings, conclusions, and recommendations
are contained in the accompanying report.




OIG Report 03-03-001-03-315                                                                       31
                                                    APPENDIX 1




            FEDERAL COST REIMBURSEMENT PRINCIPLES




OIG Report 03-03-001-03-315                                 33
FEDERAL COST REIMBURSEMENT PRINCIPLES

The DOL grants awarded to DWD provide for payment of allowable, reasonable, and allocable
incurred costs as determined by OMB Circular A-87. In addition to OMB Circular A-87, the
grant award and the “Common Rule,” governing the administration of grants to state and local
governments, contain a number of compliance requirements that must be met in order for costs to
be allowable. Among other things, the costs must be incurred in accordance with generally
accepted accounting principles, and the grant accounting records must be supported by adequate
source documentation such as canceled checks, paid bills, payroll records, time and attendance
records, contract, and subcontract award documents.

General Principles for Determining Allowable Costs

Attachment A to OMB Circular A-87 establishes general principles for determining allowable costs,
both direct and indirect, incurred by state, local, and Indian tribal governments under grants, cost-
reimbursement contracts, and other agreements with Federal agencies. The principles are
established for the purpose of determining the reasonableness, allowability, and allocability of costs
claimed and are not intended to dictate the extent of Federal or contractor/grantee participation in
the financing of a particular program or project. Accordingly, the principles describe what may be
reimbursed or recovered under a Federal award. The principles are designed to ensure that the
Federal Government bears its fair share of costs incurred, except where specifically restricted or
prohibited by law.

Under OMB Circular A-87, costs charged to Federal programs must meet the tests of allowability,
reasonableness, and allocability. To be allowable, costs must meet the following general criteria:

     a.   Be necessary and reasonable for proper and efficient performance and administration
          of Federal awards.
     b.   Be allocable to Federal awards under the Circular (e.g., on the basis of relative
          benefits received).
     c.   Be authorized (or not prohibited) under state or local laws and regulations.
     d.   Conform to any limitations or exclusions set forth in these principles, Federal laws,
          the terms and conditions of the Federal award, or any other governing regulations as
          to types and/or amounts of cost items.
     e.   Be consistent with policies, regulations, and procedures that apply uniformly to both
          Federal awards and other activities/programs of the governmental unit.
     f.   Be accorded consistent treatment. A cost may not be assigned to a Federal award
          as a direct cost if any other cost incurred for the same purpose in like circumstances
          has been allocated to the Federal award as an indirect cost. Similarly, a cost may
          not be allocated to a Federal award as an indirect cost if any other cost incurred for
          the same purpose in like circumstances has been charged to the award as a direct
          cost.


OIG Report 03-03-001-03-315                                                                        34
     g.   Except as otherwise provided for in the Circular, costs must be determined in
          accordance with generally accepted accounting principles.
     h.   Not be included as a cost or used to meet cost-sharing or matching requirements of
          any other Federal award in either the current or a prior period, except as specifically
          provided by Federal law or regulation.
     i.   Be the net of all applicable credits.
     j.   Be adequately documented.

A cost may be considered reasonable if, in its nature and amount, it does not exceed that which
would be incurred by a prudent person under the circumstances prevailing at the time the decision
was made to incur the costs. The question of reasonableness is particularly important when
governmental units or components are predominantly federally funded. In determining
reasonableness of a given cost, consideration will be given to:

     a.   Whether the cost is of a type generally recognized as ordinary and necessary for the
          operation of the governmental unit or the performance of the Federal award.
     b.   The restraints or requirements imposed by such factors as sound business practices;
          arms-length bargaining; Federal, state, and other laws and regulations; and terms and
          conditions of the Federal award.
     c.   Market prices for comparable goods or services.
     d.   Whether the individuals concerned acted with prudence in the circumstances
          considering their responsibilities to the governmental unit, its employees, the public at
          large, and the Federal Government.
     e.   Significant deviations from the established practices of the governmental unit which
          may unjustifiably increase the Federal award’s cost.

The following are the basic guidelines for costs to be allocable:

     a.   A cost is allocable to a particular cost objective if the goods or services involved are
          chargeable or assignable to such cost objective in accordance with the “relative
          benefits received.”
     b.   All activities which benefit from the governmental unit’s indirect costs, including
          unallowable activities and services donated to the governmental unit by third parties,
          will receive an appropriate allocation of the indirect costs.
     c.   Any cost allocable to a particular Federal award or cost objective under the
          principles provided for in this Circular may not be charged to other Federal awards
          to overcome fund deficiencies, to avoid restrictions imposed by law or terms of the
          Federal awards, or for other reasons. However, this prohibition would not preclude
          governmental units from shifting costs that are allowable under two or more awards
          in accordance with existing program agreements.




OIG Report 03-03-001-03-315                                                                           35
     e.    Where an accumulation of indirect costs will ultimately result in charges to a Federal
           award, a [approved] cost allocation plan [and/or an approved indirect cost rate
           agreement] will be required as described in Attachments C, D, and E.

OMB Circular A-87 mandates that the HHS issue implementing guidelines for A-87 on behalf of
the entire Federal Government. HHS has developed and issued these guidelines in ASMB C10,
Cost Principles and Procedures for Establishing Cost Allocation Plans and Indirect Cost
Rates for Agreements with the Federal Government. These additional guidelines include
discussions of the requirements for preparing and submitting cost allocation plans, public assistance
cost allocation plans, and state and local indirect cost rate proposals. In addition, these guidelines
address types of indirect cost rates, acceptable methodologies for indirect cost rate determinations,
allocation bases, special rates, the submission and documentation of indirect cost rate proposals, the
review, negotiation, and approval of indirect cost rates, etc.

Specific Principles for Determining Allowability of Selected Items of Cost

Attachment B to OMB Circular A-87 provides specific principles to be applied in determining the
allowability or unallowability of selected items of costs. These principles apply whether a cost is
treated as direct or indirect. For the purposes of this audit, the single most important principle in this
section of A-87 is Attachment B, paragraph 11.h., Support for salaries and wages, which states,
among other things:

     (3) Where employees are expected to work solely on a single Federal award or cost
     objective, charges for their salaries and wages will be supported by periodic certifications
     that the employees worked solely on that program for the period covered by the
     certification. These certifications will be prepared at least semi-annually and will be signed
     by the employee or supervisory official having first-hand knowledge of the work
     performed by the employee.

     (4) Where employees work on multiple activities or cost objectives, a distribution of
     their salaries or wages will be supported by personnel activity reports or equivalent
     documentation . . . . Such documentary support will be required where employees
     work on:

     (a)   More than one Federal award,
     (b)   A Federal award and a non-Federal award,
     (c)   An indirect cost activity and a direct cost activity,
     (d)   Two or more indirect activities which are allocated using different allocation bases,
     or
     (e)   An unallowable activity and a direct or indirect cost activity.




OIG Report 03-03-001-03-315                                                                            36
    (5) Personnel activity reports or equivalent documentation must meet the following
    standards:

    (a) They must reflect an after-the-fact distribution of the actual activity of each
    employee,
    (b) They must account for the total activity for which each employee is compensated,
    (c) They must be prepared at least monthly and must coincide with one or more pay
    periods, and
    (d) They must be signed by the employee.
    (e) Budget estimates or other distribution percentages determined before the services
    are performed do not qualify as support for charges to Federal awards.




OIG Report 03-03-001-03-315                                                                 37
                                                   APPENDIX 2




                              AUDITEE’S RESPONSE




OIG Report 03-03-001-03-315                                38
OIG Report 03-03-001-03-315   39
OIG Report 03-03-001-03-315   40
OIG Report 03-03-001-03-315   41
OIG Report 03-03-001-03-315   42
OIG Report 03-03-001-03-315   43
OIG Report 03-03-001-03-315   44
OIG Report 03-03-001-03-315   45
OIG Report 03-03-001-03-315   46
OIG Report 03-03-001-03-315   47
